TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                  Telephone Authentication Practices Need
                      Improvements to Better Prevent
                         Unauthorized Disclosures



                                        March 31, 2010

                            Reference Number: 2010-40-045




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review
 process and information determined to be restricted from public release has been redacted from
                                          this document.

 Redaction Legend:
 1 = Tax Return/Return Information
 3(d) = Identifying Information - Other Identifying Information of an Individual or Individuals


 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                 DEPARTMENT OF THE TREASURY
                                                       WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                March 31, 2010


 MEMORANDUM FOR COMMISSIONER, WAGE AND INVESTMENT DIVISION


 FROM:                   (for) Michael R. Phillips
                               Deputy Inspector General for Audit

 SUBJECT:                     Final Audit Report – Telephone Authentication Practices Need
                              Improvements to Better Prevent Unauthorized Disclosures
                              (Audit # 200940044)

 This report presents the results of our review of the authentication of taxpayers who call toll-free
 telephone numbers to determine whether current procedures to authenticate these taxpayers
 reduce the risk of unauthorized disclosure of taxpayer Personally Identifiable Information. This
 audit is a followup to two prior Treasury Inspector General for Tax Administration audits1 and
 was included in our Fiscal Year 2010 Annual Audit Plan and addresses the major management
 challenge of Providing Quality Taxpayer Service Operations.

 Impact on the Taxpayer
 In February 2009, the Federal Trade Commission reported that for the ninth year in a row
 identity theft was the number one consumer complaint nationwide. 2 Identity theft occurs when
 someone uses Personally Identifiable Information, such as an individual’s name, Social Security
 Number, credit card numbers, or other account information to commit fraud and other crimes.
 Taxpayers need to be assured that the Internal Revenue Service (IRS) is taking every precaution
 to protect their private information from inadvertent disclosure. This includes, but is not limited
 to, taxpayers calling the IRS’ toll-free telephone numbers to request account information.

 1
   Toll-Free Account Assistance to Taxpayers Is Professional and Timely, and the Quality of Information Provided
 Has Improved (Reference Number 2005-40-018, dated December 15, 2004) and Toll-Free Account Assistance to
 Taxpayers Is Professional and Timely, but Improvement Is Needed in the Information Provided (Reference
 Number 2004-40-057, dated February 27, 2004).
 2
   Consumer Sentinel Network Data Book for January - December 2008, Federal Trade Commission, dated
 February 2009.
                        Telephone Authentication Practices Need Improvements
                              to Better Prevent Unauthorized Disclosures




Synopsis
The telephone continues to be one of the primary methods taxpayers use to communicate with
the IRS. Millions of telephone calls were made to the IRS toll-free telephone line
(1-800-829-1040) in Fiscal Year 2009 seeking help with tax account questions. IRS guidelines
require assistors to fully authenticate callers before assisting them. Two prior Treasury Inspector
General for Tax Administration audit reports identified that IRS assistors did not always comply
with procedures for authenticating taxpayers’ identities.
Assistors are not always authenticating taxpayers who call the IRS’ toll-free telephone number
for tax account information. From our statistical sample of
180 contact recordings, 3 we determined that assistors did not
                                                                      Of 180 calls tested,
properly follow procedures when authenticating                    assistors increased the
29 (16 percent) callers, increasing the risk of unauthorized         risk of unauthorized
disclosures.                                                            disclosures for
                                                                                          29 calls.
    •    9 assistors did not ask callers the 2 additional
         authentication probes (high-risk questions) when the
         situation required.
    •    8 assistors did not ask callers all 5 required authentication questions.
    •    7 assistors did not authenticate callers for various other reasons. For example, assistors
         did not appropriately end the call when the caller continued to incorrectly answer probing
         questions or the assistor was in doubt of the caller’s identity.
    • *********************1**************************************************.
    • *******************1**************************************************
        ********************************************************************
        *******************************************************
Based on these results, the projected number of callers with increased risk of unauthorized
disclosures is 44,067 for 1 week.
During our review of 48 (27 percent) of the 180 sampled calls, we were able to hear parts of
assistors’ conversations with other callers. For 10 calls (6 percent) the conversations were very
clear and for 38 calls (21 percent) other assistors’ interactions with callers were heard, but we
could not clearly make out the conversations. This happened because assistors did not put callers

3
  A contact recording captures the audio portion of the assistor/taxpayer interaction on the IRS’ toll-free telephone
lines and is synchronized with computer screen activity for replay and quality review. Some of the recordings also
include a video of the computer screen activity. These contact recordings were from calls received from individual
taxpayers who called the IRS’ 1-800-829-1040 line during the week ending August 14, 2009.
                                                                                                                        2
                        Telephone Authentication Practices Need Improvements
                              to Better Prevent Unauthorized Disclosures



on hold when they were researching the taxpayers’ accounts. Also, the physical layout of
workstations at call centers allows other conversations to be overheard. For 26 calls (14 percent
of all calls tested), assistors repeated the Social Security Number back to the caller on the
telephone. This puts the IRS at risk of disclosing Personally Identifiable Information.
The IRS has a new IRS-wide Authentication Strategy and its vision is to promote data protection
and enable ease of access to maintain public confidence and improve customer service. The
goals are to enhance an IRS-wide authentication internal control framework to address risk, deter
fraudulent access, and institutionalize a common set of principles for authenticating taxpayers
when contacting the IRS.
Taxpayers must be authenticated each time they are transferred to a different assistor to ask an
account question. During Fiscal Year 2009, 1,019,170 calls were transferred. The IRS has a
future strategy called Authentication Retention to reduce the number of times a caller is
authenticated. Authentication Retention will allow caller’s authentication information to be
readily available to each assistor who provides help to the caller. However, in Fiscal Year 2009,
the IRS decided not to fund Authentication Retention, but will reconsider it in future budget
requests. This initiative is expected to affect approximately 20 million callers, reduce taxpayer
burden by more than $1 million, reduce improper disclosure errors, and save approximately
$7 million in assistor time annually. The estimated cost for the project is $7 million.
For Fiscal Year 2009, the average amount of time callers waited to speak with an assistor was
approximately 10 minutes. Authenticating callers using an automated system while they wait to
speak to an assistor could reduce taxpayer burden, reduce authentication errors, and increase the
number of calls the IRS could answer. This is important because as the IRS answers more calls
the Level of Service 4 increases.
Using results from our statistical sample, if 50 percent of the callers were authenticated while
waiting to speak to an assistor, the IRS could save 136,654 minutes of assistor time, or
2,278 hours per week. The projected 5-year (Fiscal Years 2010 through 2014) productivity gain
from authenticating callers while they wait to speak with an assistor equates to 496 Full-Time
Equivalents, 5 or approximately $30 million. During Fiscal Year 2009, the average time assistors
spent on the telephone assisting callers was more than 11 minutes. The IRS could also increase
productivity by answering 1,180,306 additional calls per year because assistors would spend
approximately 1 minute less talking with callers.




4
 The Level of Service is the IRS’ primary measure of providing taxpayers with access to a live assistor.
5
 A measure of labor hours in which 1 Full-Time Equivalent is equal to 8 hours multiplied by the number of
compensable days in a particular fiscal year. For Fiscal Year 2009, 1 Full-Time Equivalent was equal to 2,088 staff
hours. See Appendix IV for details.
                                                                                                                  3
                     Telephone Authentication Practices Need Improvements
                           to Better Prevent Unauthorized Disclosures




Recommendations
We recommended that the Commissioner, Wage and Investment Division, revise guidelines to
require assistors to ask two additional high-risk probes when callers incorrectly answer the
address or date of birth probes. During assistor training, it should be emphasized that assistors
are not to prematurely authenticate callers when using the Account Management Services and
should place callers on hold while conducting research. Assistors should be trained on the
importance of controlling calls and guidelines should be developed that require assistors to ask
callers to repeat Personally Identifiable Information if clarification is needed. Finally, the
Commissioner should incorporate available technology to authenticate callers in the queue into
the development of Authentication Retention.

Response
The IRS agreed with two and partially agreed with one of our four recommendations. It will
emphasize during training the proper use of hold procedures. Guidance and training will be
developed to instruct assistors to request callers repeat Personally Identifiable Information rather
than having the assistor repeat the information back to callers. Assistors will be trained to repeat
only partial information back to callers when the assistor determines it is necessary to repeat
information. The IRS will also submit a technology request to incorporate available technology
to authenticate callers prior to their reaching an assistor.
The IRS did not agree with our recommendation to revise guidelines to require assistors to ask
two additional high-risk probes when callers incorrectly answer the address or date of birth
probes. The IRS considers existing guidelines sufficient and revising the guidelines is
unnecessary. It considers that the authentication strategic approach currently under development
will further change the current authentication process. However, the IRS stated that while there
is no plan at this time to require two additional high-risk probes when callers incorrectly answer
the address or date of birth probes, training materials will continue to emphasize that inadequate
caller identity authentication could result in an unauthorized disclosure.
The IRS also partially agreed with our recommendation to emphasize during training that
assistors do not prematurely authenticate callers when using the Account Management Services.
The IRS considers the possibility of inadvertent disclosure to be remote since its review of our
sample calls did not reveal instances of unauthorized disclosure. In addition, the use of the
Automated Technology Disclosure Tool is now mandatory. The IRS will update training
materials to emphasize the risk of prematurely authenticating callers.
The IRS did not agree with our second outcome measure on the inefficient use of resources
because it believes that the measure does not consider the cost to develop and operate the


                                                                                                    4
                    Telephone Authentication Practices Need Improvements
                          to Better Prevent Unauthorized Disclosures



Authentication Retention system. Management’s complete response to the draft report is
included as Appendix VI.

Office of Audit Comment
We believe that requiring assistors to ask two additional high-risk probes when callers
incorrectly answer the address or date of birth probes is warranted to reduce the risk of
unauthorized disclosure of taxpayer information. Our review of a sample of calls showed that
assistors are routinely asking additional high-risk questions. We believe modifying existing
guidelines to require the additional questions would not be an unnecessary burden considering
the consequences of unauthorized disclosure.
Regarding the inefficient use of resources outcome measure, we agree that there would be
additional costs to develop and operate the Authentication Retention system. However, these
costs have not been quantified and the IRS did not provide its own estimate in its response.
Notwithstanding, we believe this outcome measure shows the degree to which the Authentication
Retention system will improve the efficient use of existing staff resources based on the average
volume of calls during the stated 3-year period.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Michael E. McKenney, Assistant Inspector General for Audit (Returns Processing and Account
Services), at (202) 622-5916.




                                                                                                5
                           Telephone Authentication Practices Need Improvements
                                 to Better Prevent Unauthorized Disclosures




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          Assistors Are Not Always Authenticating Taxpayers Who Call
          the Internal Revenue Service’s Toll-Free Telephone Number
          for Tax Account Information ........................................................................Page 3
                    Recommendations 1 and 2: ..............................................Page 8

          Taxpayers May Be Able to Overhear Personally Identifiable
          Information Being Discussed by Assistors on Other Calls...........................Page 9
                    Recommendation 3:........................................................Page 9

          Adopting Industry Best Practices Could Improve the Customer Service
          Experience, Reduce Operating Costs, and Increase the Number of Calls
          Assistors Answered.......................................................................................Page 10
                    Recommendation 4:........................................................Page 13


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 14
          Appendix II – Major Contributors to This Report ........................................Page 16
          Appendix III – Report Distribution List .......................................................Page 17
          Appendix IV – Outcome Measures...............................................................Page 18
          Appendix V – Authentication Requirements................................................Page 20
          Appendix VI – Management’s Response to the Draft Report ......................Page 23
        Telephone Authentication Practices Need Improvements
              to Better Prevent Unauthorized Disclosures




                    Abbreviations

IRS           Internal Revenue Service
TIGTA         Treasury Inspector General for Tax Administration
                       Telephone Authentication Practices Need Improvements
                             to Better Prevent Unauthorized Disclosures




                                            Background

In February 2009, the Federal Trade Commission reported that for the ninth year in a row
identity theft was the number one consumer complaint nationwide. 1 Identity theft occurs when
  Personally Identifiable Information
                                              someone uses Personally Identifiable Information,
  includes an individual’s:                   such as an individual’s name, Social Security
  • Name.                                     Number, credit card numbers, or other account
  • Address.                                  information, to commit fraud and other crimes.
  • E-mail Address.                           The Internal Revenue Service (IRS) Office of
  • Social Security Number.                   Privacy, Information Protection, and Data
  • Telephone Number.                         Security defines Personally Identifiable
  • Bank Account Number.
  • Date and Place of Birth.
                                              Information as any combination of information
  • Mother’s Maiden Name.                     that can be used to uniquely identify, contact, or
  • Biometric Data (i.e., height, weight, eye locate a person and could subsequently be used
      color, finger prints, etc.).            for identity theft.
                                                 Telephone usage continues to be one of the
primary methods taxpayers use to communicate with the IRS. Millions of taxpayers call the IRS
toll-free telephone line (1-800-829-1040) every year seeking help with tax account questions.
These calls require that telephone assistors authenticate taxpayers before assisting them, for
example, when taxpayers call to inquire about the amount of their tax refunds or to discuss taxes
owed on their accounts.
Internal Revenue Code Section 6103 states that tax returns and return information shall be
confidential, except as authorized. The definition of tax return information includes a taxpayer’s
identity and the nature, source, or amount of his or her income, payments, receipts, deductions,
exemptions, credits, assets, liabilities, net worth, tax liability, and tax withheld.
Two prior Treasury Inspector General for Tax Administration (TIGTA) audit reports identified
that IRS assistors did not always comply with procedures for authenticating taxpayers’
identities. 2 IRS guidelines require assistors to fully authenticate the caller as authorized to
receive the information before providing an answer to the taxpayer’s question.



1
  Consumer Sentinel Network Data Book for January - December 2008, Federal Trade Commission, dated
February 2009.
2
  Toll-Free Account Assistance to Taxpayers Is Professional and Timely, and the Quality of Information Provided
Has Improved (Reference Number 2005-40-018, dated December 15, 2004) and Toll-Free Account Assistance to
Taxpayers Is Professional and Timely, but Improvement Is Needed in the Information Provided (Reference
Number 2004-40-057, dated February 27, 2004).
                                                                                                          Page 1
                    Telephone Authentication Practices Need Improvements
                          to Better Prevent Unauthorized Disclosures



In addition, TIGTA’s Office of Investigations has worked with other law enforcement
organizations to address criminal activity using pretexting. Pretexting is an element of social
engineering, the act of manipulating people into performing actions or divulging confidential
information. Pretexting is the act of creating and using an invented scenario to persuade
someone to release information. It is typically done over the telephone and most often involves
some prior research and the use of pieces of known Personally Identifiable Information, such as
date of birth or Social Security Number. According to the Federal Trade Commission, pretexting
can lead to identity theft.
A recent case involved private investigators who were indicted on charges that they used illegal
methods, including identity theft, to illegally obtain
Personally Identifiable Information from the IRS,            Private investigators used illegal
Social Security Administration, and other agencies for       methods, including identity theft,
***3(d)**********. From January 2004 to May 2007,              to illegally obtain Personally
employees from a private investigation company posed              Identifiable Information
                                                                  from Federal agencies.
as the people they were investigating to trick the targets
into releasing sensitive information (i.e., ***3(d)*****
****3(d)***************** tax returns, and medical ***3(d)*** and selling this information to
other private investigators, law firms, and others.
This review was performed at the Wage and Investment Division offices in Atlanta, Georgia,
during the period July through December 2009. We conducted this performance audit in
accordance with generally accepted government auditing standards. Those standards require that
we plan and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
basis for our findings and conclusions based on our audit objective. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions based on our
audit objective. Detailed information on our audit objective, scope, and methodology is
presented in Appendix I. Major contributors to the report are listed in Appendix II.




                                                                                         Page 2
                        Telephone Authentication Practices Need Improvements
                              to Better Prevent Unauthorized Disclosures




                                       Results of Review

Assistors Are Not Always Authenticating Taxpayers Who Call the
Internal Revenue Service’s Toll-Free Telephone Number for Tax
Account Information
From our statistical sample of 180 contact recordings, 3 we determined that assistors did not
properly follow procedures when authenticating 29 (16 percent) callers, increasing the risk of
unauthorized disclosures. Based on these results, the projected number of callers with increased
risk of unauthorized disclosures is 44,067 for 1 week.

Assistors did not always follow guidelines when authenticating callers
Of the 180 calls tested, assistors increased the risk of unauthorized disclosures for 29 calls.
                                                •    9 assistors did not ask callers the 2 additional
Internal guidelines instruct
assistors to ask the following
                                                     authentication probes (high-risk questions) when the
questions (probes) to authenticate                   situation required.
the caller before discussing any tax
account information:                            •    8 assistors did not ask callers all 5 required
1. Taxpayer Identification Number.                   authentication questions.
2. Name.                                        •    7 assistors did not authenticate callers for various
3. Address.                                          other reasons. For example, assistors did not
4. Date of Birth.                                    appropriately end the call when the caller continued
5. Filing Status.                                    to incorrectly answer probing questions or the
If the caller does not answer correctly,             assistor was in doubt of the caller’s identity.
or answer all the questions, the
assistor is required to ask two                 •
                                     *********************1*******************
additional authentication questions,*****************************************
referred to as high-risk questions. *****************************************
                                    *****************************************
    **************************************************************************
    **************************************************************************
    ************************************************


3
  A contact recording captures the audio portion of the assistor/taxpayer interaction on the IRS’ toll-free telephone
lines and is synchronized with computer screen activity for replay and quality review. Some of the recordings also
include a video of the computer screen activity. These contact recordings were from calls received from individual
taxpayers who called the IRS’ 1-800-829-1040 line during the week ending August 14, 2009.
                                                                                                              Page 3
                        Telephone Authentication Practices Need Improvements
                              to Better Prevent Unauthorized Disclosures



        •   2 assistors did not confirm whether the caller was physically present at the fax
            machine when tax account information was being faxed or did not inform the caller of
            the risk of disclosure when using a cell phone to discuss taxpayer information.
Internal guidelines state that five probes are required to authenticate the caller, and in some cases
additional probes are required. 4 If the taxpayer’s identification number and name do not match
IRS records, 5 the assistor must not provide taxpayer information to the caller and should advise
the caller to call back with accurate information. If the caller incorrectly responds to one of the
other three probes, the assistor is instructed to ask two or more high-risk questions.
In an attempt to provide good customer service and provide callers with the account information
requested, assistors at times asked multiple high-risk questions. Guidelines do not specify the
maximum number of questions to ask before the caller is authenticated. Instead, assistors are
instructed to use their discretion. However, there is a risk that this will lead to pretexting. For
example:
    •   Callers answered multiple probes incorrectly so assistors kept asking questions until the
        callers were able to finally answer two additional questions correctly.
    •   Callers stated they did not know the answer to the question assistors asked, but suggested
        another question in hopes they would be able to answer it correctly. The assistor then
        asked the exact question suggested by the caller, the caller answered correctly, and the
        assistor provided the account information requested.
    •   Assistors asked callers to give their word that they were the person whose information
        was on the IRS system.
The above situations open up the potential for providing information to potential identity thieves
or impostors who use “pretexting” to illicitly obtain access to taxpayer information. The private
investigators, who were indicted in the identity theft case referred to in the Background section,
used this technique to gain taxpayer information. The greater the number of questions assistors
ask callers about their accounts, the more information the callers learn that can be used to
deduce the taxpayers’ tax account information. With this information identity thieves can
continue to call the IRS to gain access to taxpayer information. For example, generally with
four calls an identity thief can get enough information to deduce a taxpayer’s filing status.
Assistors who provide information to an individual without fully authenticating him or her
increase the risk that a taxpayer’s Personally Identifiable Information will be disclosed to an
unauthorized individual. Assistors are responsible for knowing with whom they are speaking


4
 See Appendix V for the authentication instructions in detail.
5
 The assistor accesses and verifies taxpayer data via the Integrated Data Retrieval System. The Integrated Data
Retrieval System is the IRS computer system capable of retrieving or updating stored information; it works in
conjunction with a taxpayer’s account records.
                                                                                                           Page 4
                         Telephone Authentication Practices Need Improvements
                               to Better Prevent Unauthorized Disclosures



and the purpose of the call/contact. They must authenticate each caller as someone entitled to
receive information about a tax return or tax account. Only after authenticating the taxpayer or
third-party designee 6 should the assistor disclose information about the account to the caller.
The IRS currently uses the Centralized Quality Review System to measure quality including
Customer Accuracy. This process requires reviewers to listen to a statistical sample of contact
recordings to evaluate the contact. The IRS does not consider it a direct impact to the taxpayer
when the assistor does not ask all the required identification probe questions or does not
correctly complete the taxpayer authentication probe. Therefore, the IRS does not include this as
an error in the calculation of Customer Accuracy and when reporting Customer Accuracy
externally to stakeholders. The IRS does include authentication errors in another quality
measure reported internally.
Guidelines do not require that assistors always ask high-risk questions when a caller
incorrectly answers the required probes
Guidelines state that if a caller’s responses to either address or date of birth do not match the
IRS’ information, the assistor may ask high-risk questions to help authenticate the caller;
however, the assistor is not required to ask additional questions. If the caller cannot provide the
correct filing status used to file the return in question, the assistor must ask two or more
additional questions to authenticate the caller as someone eligible to receive information about
the account. Figure 1 shows assistors’ requirements relating to the five required probes.
                                       Figure 1: Five Required Probes

       Taxpayer
     Identification Name                Current Address             Filing Status               Date of Birth
        Number
     If the caller is unable to        If the caller fails to   If the caller cannot       If the caller fails the
     provide either, advise            provide the correct      confirm filing status,     date of birth probe,
     the caller to call back           address of record,       continue with date of      but correctly
     when he or she has                but correctly            birth. The assistor        responds to all other
     re-checked the taxpayer           responds to all of the   must also request          items, the assistor
     name and Taxpayer                 other items, the         additional                 may request
     Identification Number.            assistor may request     authentication.            additional
     Terminate the call.               additional                                          authentication.
                                       authentication.

    Source: IRS internal guidelines.




6
 A third-party designee acts as an authorized third-party contact for resolving certain issues related to the
processing of a taxpayer’s tax return or account.
                                                                                                                Page 5
                       Telephone Authentication Practices Need Improvements
                             to Better Prevent Unauthorized Disclosures



We reported this issue in Fiscal Years 2004 and 2005. 7 In these two reports we recommended
that the IRS strengthen internal guidelines to ensure all required probes are asked and verified
and that the assistors are required to go to the high-risk questions when information in the IRS
systems does not match the caller’s information.
The IRS responded that guidelines provided a proper balance between protecting confidentiality
and providing service without unnecessary burden. Further, the IRS stated assistors are given
discretion because the data in its internal systems would not always match the information being
provided by the caller (i.e., address and date of birth) at the time of the call. The IRS receives
date of birth information from the Social Security Administration. The IRS did not revise its
internal guidelines and continues to allow the assistor discretion in asking additional high-risk
authentication probes.
Nevertheless, assistors are routinely asking the additional high-risk questions. For 80
(44 percent) of the 180 calls, the assistors elected to ask callers high-risk questions. Social
Security Administration authentication guidelines require assistors to ask high-risk
authentication probes if the caller incorrectly answers the date of birth question.
The IRS has a new IRS-wide Authentication Strategy and its vision is to promote data protection
and enable ease of access to maintain public confidence and improve customer service. The
goals are to enhance an IRS-wide authentication internal control framework to address risk, deter
fraudulent access, and institutionalize a common set of principles for authenticating taxpayers
when contacting the IRS.

Assistors are not effectively using the Accounts Management Service 8 to
authenticate taxpayers and control the calls
For 8 (38 percent) of 21 calls tested that included a video recording, the assistor did not
effectively use the Accounts Management Service to facilitate the authentication process. It is
recommended that assistors use a job aid or tool in the Accounts Management Service to
authenticate callers. This tool allows assistors to type in a Social Security Number to obtain IRS
records on the caller. The Accounts Management Service also provides a list of the required
probes and as the assistor asks each required question, they have been trained to check off each
box to confirm that the caller’s answers match IRS’ records. Figure 2 provides a screen display
of one of the screens used by assistors to authenticate callers.



7
  Toll-Free Account Assistance to Taxpayers Is Professional and Timely, and the Quality of Information Provided
Has Improved (Reference Number 2005-40-018, dated December 15, 2004) and Toll-Free Account Assistance to
Taxpayers Is Professional and Timely, but Improvement Is Needed in the Information Provided (Reference
Number 2004-40-057, dated February 27, 2004).
8
  The Accounts Management Service is a computer-based system used to answer and resolve all taxpayer
account-related questions.
                                                                                                          Page 6
                     Telephone Authentication Practices Need Improvements
                           to Better Prevent Unauthorized Disclosures



             Figure 2: Accounts Management Service Disclosure Screen
                      Used by Assistors to Authenticate Callers




          Source: IRS training manual.

For these calls, assistors were observed checking off the disclosure data fields or
the “Authorized” button on the Accounts Management Service Disclosure screen before asking
the required probes.
In addition, assistors did not appropriately control the authentication phase in 32 (18 percent) of
180 calls. Guidelines clearly state that before assistors begin authenticating the caller, they are to
first ask the purpose of the call to ensure they can provide assistance. Only after understanding
the purpose of the call and after determining if authentication is required are they to begin the
authentication process. This ensures they ask the probes without distractions. However, many
assistors from the calls tested combined these two processes or allowed callers to interrupt during
the authentication process. In addition, assistors engaged in small talk during the authentication
process.
These practices could cause the assistor to lose control of the call and be distracted when
authenticating the caller. This could also cause the assistor to lose track of how many of the
required probes have been asked and cause the assistor to not properly authenticate the caller.




                                                                                              Page 7
                    Telephone Authentication Practices Need Improvements
                          to Better Prevent Unauthorized Disclosures



Recommendations
The Commissioner, Wage and Investment Division, should:
Recommendation 1: Revise guidelines to require assistors to ask two additional high-risk
probes when callers incorrectly answer the address or date of birth probes.
       Management’s Response: The IRS disagreed with this recommendation, stating that
       revising the guidelines is unnecessary. Current guidelines require the taxpayer to answer
       five authentication questions and provide assistors the latitude to ask additional questions
       if there is any doubt about the taxpayer’s identity. The guidelines also state that the
       telephone assistor may request additional authentication if the address or date of birth
       question is answered incorrectly. In addition, the authentication strategic approach
       currently under development will further change the current authentication process.
       The IRS stated that while there is no plan at this time to require two additional high-risk
       probes when callers incorrectly answer the address or date of birth probes, the IRS will
       ensure that training materials continue to emphasize that inadequate caller identity
       authentication could result in an unauthorized disclosure.
       Office of Audit Comment: We believe requiring assistors to ask two additional
       high-risk probes when callers incorrectly answer the address or date of birth probes is
       warranted to reduce the risk of an unauthorized disclosure. Our review of sample calls
       showed that assistors are routinely asking additional high-risk questions. We believe
       modifying existing guidelines to require the additional questions would not be considered
       a burden considering the consequences of unauthorized disclosure on taxpayers.
Recommendation 2: Emphasize during training that assistors should not prematurely
authenticate callers when using the Account Management Services. In addition, train assistors
on the importance of controlling calls.
       Management’s Response: The IRS partially agreed with this recommendation. The
       IRS stated that during its review of TIGTA’s sample of calls, there were no instances
       where unauthorized disclosure actually occurred due to the premature authentication of a
       caller. In addition, use of an Integrated Automated Technology Disclosure Tool is now
       mandatory. The tool includes all required authentication probes and provides the assistor
       the ability to leave history notes related to authentication. Therefore, the possibility of
       inadvertent disclosure is remote.
       However, in keeping with the IRS’ commitment to avoid even the remote possibility of
       disclosure of taxpayer information, training materials will be updated to emphasize the
       hazard of prematurely authenticating callers and bypassing the authentication tool. The
       IRS currently focuses on the importance of utilizing the required authentication questions
       and will continue to provide this training to telephone assistors.

                                                                                             Page 8
                    Telephone Authentication Practices Need Improvements
                          to Better Prevent Unauthorized Disclosures



Taxpayers May Be Able to Overhear Personally Identifiable
Information Being Discussed by Assistors on Other Calls
Taxpayers who call the IRS toll-free telephone lines are at risk of having their Personally
Identifiable Information inadvertently overheard and disclosed during conversations with
                             assistors. During our review of 48 (27 percent) of the 180 sampled
                             calls, we were able to overhear other assistors discussing other
                             callers’ Personally Identifiable Information. For 10 calls
                             (6 percent), we were able to clearly hear parts of conversations with
                             other callers. For 38 calls (21 percent), other assistors’ interactions
                             with callers were overheard, but we could not clearly understand the
                             conversations. This happened because assistors did not put callers
                             on hold when they were researching the taxpayers’ accounts. Also,
the physical layout of employee workstations at call centers allows other conversations to be
easily overheard.
For 26 (14 percent) of the 180 calls, assistors repeated the Social Security Number back to the
caller on the telephone. This puts the IRS at risk for disclosing Personally Identifiable
Information. We recognize that assistors often have valid reasons to confirm the information
provided by callers. However, the practice of assistors repeating Personally Identifiable
Information increases the risk of inadvertent unauthorized disclosures because background
conversations can be heard by other callers. Internal guidelines do not specifically prohibit this
behavior; however, a better practice would be for assistors to ask callers to restate information
needed. Taxpayers need to be assured that the IRS is taking every precaution to protect their
private information from inadvertent disclosure.

Recommendation
Recommendation 3: The Commissioner, Wage and Investment Division, should emphasize
during training that assistors place callers on hold while conducting research. Guidelines should
be developed that require assistors to ask callers to repeat Personally Identifiable Information if
clarification is needed (e.g., Social Security Numbers). In addition, if there is a need for
an assistor to repeat information back to the caller, the information should be limited to only
partial information, for example, the numbers of the caller’s street address.
       Management’s Response: The IRS agreed with this recommendation. It already
       provides extensive training on telephone communication skills, including training
       specifically on proper use of hold procedures and on conducting thorough authentication
       interviews. During training, it will continue to emphasize the use of placing calls on
       hold, when appropriate, as the level of research varies with each call (i.e., if minimal
       research is required, there is no need to place the caller on hold). Guidelines and training
       material will be modified to instruct assistors to ask the caller to repeat Personally

                                                                                             Page 9
                    Telephone Authentication Practices Need Improvements
                          to Better Prevent Unauthorized Disclosures



       Identifiable Information rather than having the assistor repeat the information back to the
       caller. The IRS will develop guidelines and training that instruct the assistor to repeat
       only partial information back to the caller when the assistor determines it is necessary to
       repeat information.

Adopting Industry Best Practices Could Improve the Customer
Service Experience, Reduce Operating Costs, and Increase the
Number of Calls Assistors Answered
The IRS is committed to providing top-quality service to taxpayers. The quality of service
provided to taxpayers remains among the major management challenges the IRS is facing. One
of the IRS’ major strategies in the IRS’ Fiscal Year 2009–2013 Strategic Plan is to seek
innovative ways to simplify or eliminate processes that unnecessarily burden taxpayers or
resources. The aim is to provide prompt and accurate responses to all requests for assistance.
The IRS’ goal is to make its toll-free telephone operation a “world-class customer service
organization” that provides taxpayers with accessible and accurate tax assistance.

Authentication questions asked by IRS assistors are consistent with other
Federal and State Government agencies
Callers to the IRS toll free account lines are required to answer at least five but as many as seven
questions before the assistor can discuss account information. This requirement is consistent
with those of Federal and State Government agencies contacted during this review. Auditors
held discussions with representatives from the Social Security Administration, the Department of
Veterans Affairs, and the States of California and Georgia to evaluate the agencies authentication
requirements and identify best practices. Except for the Social Security Administration and the
Department of Veterans Affairs, agencies require callers to provide their name, address, and
Social Security Number, and require assistors to ask high-risk questions. Assistors at the
Department of Veterans Affairs ask callers for the military service branch they served under
instead of their address. Figure 3 shows the authentication questions asked by assistors for select
Federal and State Government agencies.




                                                                                            Page 10
                       Telephone Authentication Practices Need Improvements
                             to Better Prevent Unauthorized Disclosures



                  Figure 3: Authentication Questions Asked by Assistors
                     for Select Federal and State Government Agencies

Callers Are Asked to         Internal
                                             Social Security        Department of      State of    State of
Authenticate the             Revenue
                                             Administration        Veterans Affairs   California   Georgia
Following:                   Service
Name                             X                   X                       X            X           X
Address                          X                                                        X           X
Social Security
                                 X                   X                       X            X           X
Number
Date of Birth                    X                   X
Filing Status                    X
Mother’s Maiden
                                                     X
Name
Place of Birth                                       X
Branch of Military
                                                                             X
Service
High-Risk Questions              X                   X                       X            X           X
Source: TIGTA auditors’ discussions with the selected government agencies.

Reducing the number of times callers are authenticated could improve the
customer service experience
Taxpayers asking for account assistance must be authenticated each time they are transferred to a
different assistor. Callers are routinely transferred because they have additional questions the
assistor may not be trained to answer. During Fiscal Year 2009, 1,019,170 calls were
transferred.
The IRS has a future strategy called Authentication Retention to reduce the number of times a
caller is authenticated. It will enable automatic identification over the telephone for
account-related callers by verification of specific shared secrets. Authentication Retention will
increase taxpayer value through ease in authentication and lack of repetition, as a caller’s
authentication information and contact history is made readily available to each assistor who
provides help to the caller. Reducing the number of times an assistor has to authenticate callers
decreases the risk of unauthorized disclosures and taxpayer burden. While only a few callers
complained about having to answer so many questions, having to answer the same questions
multiple times may be considered excessive.




                                                                                                   Page 11
                        Telephone Authentication Practices Need Improvements
                              to Better Prevent Unauthorized Disclosures




Authenticating callers while they wait to speak to an assistor could further reduce
taxpayer burden and authentication errors
For Fiscal Year 2009, the average amount of time callers waited to speak with an assistor was
approximately 10 minutes. While waiting, callers generally hear music or informational
announcements.
The Social Security Administration authenticates callers using an automated system made up of
voice recognition and/or touch tone actions that captures the caller’s responses. The caller is
asked: 1) first and last name, 2) place of birth, 3) date of birth, 4) mother’s maiden name, and
5) Social Security Number. The responses are automatically populated to the assistor’s computer
screen for verification. If verified, the assistor is able to immediately help the caller with his or
her issue. If incorrect or if the caller does not answer all five questions, the assistor is instructed
to ask additional probing questions to authenticate the caller.
Several of the technological components required for Authentication Retention could be used for
authenticating callers in the queue. Managers at the Social
Security Administration stated that the ability to
authenticate callers while they wait in the queue allows         Authenticating callers while
                                                               they wait in the queue to talk to
assistors to immediately address issues, answer more calls,       an assistor saves time and
and reduce customer burden. Further, authenticating callers          increases accuracy.
while they wait in the queue saves time and increases
accuracy. The IRS estimates that assistors spend
approximately 1 minute per call authenticating the caller.
Authenticating callers in the queue also increases the number of calls the IRS can answer. This
is especially important because as the IRS answers more calls, the Level of Service91 provided to
taxpayers increases. Using results from our statistical sample, if 50 percent of the callers were
authenticated while waiting to speak to an assistor, the IRS could save 136,654 minutes of
assistor time, or 2,278 hours per week. The projected 5-year (Fiscal Years 2010 through 2014)
productivity gain from authenticating callers while they wait to speak with an assistor would
equal 496 Full-Time Equivalents,102 or approximately $30 million. During Fiscal Year 2009, the
average amount of time assistors spent on the telephone assisting callers was more than
11 minutes.113 The IRS could also increase productivity by answering 1,180,306 additional calls




9
  The Level of Service is the IRS’ primary measure of providing taxpayer with access to a live assistor.
10
   A measure of labor hours in which 1 Full-Time Equivalent is equal to 8 hours multiplied by the number of
compensable days in a particular fiscal year. For Fiscal Year 2009, 1 Full-Time Equivalent was equal to 2,088 staff
hours. See Appendix IV for details.
11
   Average amount of time assistor spent assisting caller calculated as follows: The Average Handle Time for Fiscal
Year 2009 individual taxpayer account calls is 690 seconds, 690/60 seconds = 11.5 minutes.
                                                                                                          Page 12
                       Telephone Authentication Practices Need Improvements
                             to Better Prevent Unauthorized Disclosures



per year124 because assistors would spend approximately 1 minute less talking with callers
because the reason they called could be immediately addressed as soon as the call is answered.
Finally, using an automatic system to authenticate taxpayers would eliminate many of the
concerns identified in this audit and reduce employee authentication errors. All five probes
would be consistently asked. Assistors would have to ask only the high-risk questions, if any at
all, and would be able to focus on the customer’s request.

Recommendation
Recommendation 4: The Commissioner, Wage and Investment Division, should incorporate
available technology to authenticate callers in the queue as part of the development of
Authentication Retention.
        Management’s Response: The IRS agreed with this recommendation. It will submit
        a Unified Work Request by January 15, 2011, to incorporate available technology to
        authenticate callers prior to their reaching an assistor. The requested action will be
        subject to funding and resource prioritization.
        Office of Audit Comment: The IRS did not agree with our outcome measure related
        to this recommendation because it believes that the measure does not consider the cost to
        develop and operate the Authentication Retention system. We agree that there would be
        additional costs to develop and operate the Authentication Retention system. However,
        these costs have not been quantified and the IRS did not provide its own estimate in its
        response. Notwithstanding, we believe this outcome measure shows the degree to which
        the Authentication Retention system will improve the efficient use of existing staff
        resources based on the average volume of calls during the stated 3-year period.




12
  The following data were used to calculate 1,180,306 additional calls per year: The average number of individual
account calls for Fiscal Years 2007 through 2009 equals 24,786,428 multiplied by 50 percent of callers that would
be authenticated while they wait to speak with an assistor (24,786,428 X .50 = 12,393,214). We divided the number
of callers authenticated while they wait, 12,393,214, by the average number of minutes assistors spend assisting
callers, 10.5 minutes (12,393,214/10.5 = 1,180,306). The 10.5 minutes were calculated by taking the 11.5 minutes
the IRS stated its assistors spend with callers on account calls less the 1 minute spent authenticating callers.
                                                                                                        Page 13
                        Telephone Authentication Practices Need Improvements
                              to Better Prevent Unauthorized Disclosures



                                                                                                    Appendix I

          Detailed Objective, Scope, and Methodology

Our overall objective was to evaluate the controls over the authentication of taxpayers who call
toll-free telephone numbers to determine whether current procedures to authenticate these
taxpayers reduce the risk of unauthorized disclosure of taxpayer Personally Identifiable
Information. To accomplish this we objective, we:
I.       Determined previous concerns and what actions were taken to correct them by researching
         prior taxpayer authentication issues and previously reported control breakdowns.
         A. Contacted the TIGTA Office of Investigations to obtain information on any open or
            closed investigations related to unauthorized disclosure or identity theft related to
            taxpayer authentication from the toll-free telephone lines.
         B. Obtained and reviewed prior audit reports on telephone authentication.
II.      Determined whether IRS policies and controls for processing taxpayer requests for tax
         account information are sufficient.
         A. Evaluated the internal control environment and identified risks related to responding
            to taxpayers’ telephone contact regarding tax account information by researching
            internal guidelines and training materials and interviewing appropriate IRS personnel.
         B. Contacted IRS functional offices to evaluate internal initiatives to improve existing
            authentication methods, including internal evaluation or adoption of new
            authentication methods and technologies.
         C. Reviewed the quality review process and quality reports to identify disclosure
            accuracy trends and evaluated how this information is used to increase authentication
            accuracy rates and reduce the risk of unauthorized disclosure.
III.     Determined whether employees adhered to authentication guidelines.
         A. Selected a statistical sample of 180 contact recordings 1 from the 273,308 contact




1
  A contact recording captures the audio portion of the assistor/taxpayer interaction on the IRS’ toll-free telephone
lines and is synchronized with computer screen activity for replay and quality review. Some of the recordings also
include a video of the computer screen activity. These contact recordings were from calls received from individual
taxpayers who called the IRS’ 1-800-829-1040 line during the week ending August 14, 2009.
                                                                                                             Page 14
                        Telephone Authentication Practices Need Improvements
                              to Better Prevent Unauthorized Disclosures



             recordings list for Applications 20 and 21 2 for the week ending August 14, 2009. We
             used a 95 percent confidence level, 6 percent precision rate, and 20 percent error rate.
             The error rate was based on our survey results. We validated our sample by
             confirming assistors accessed taxpayers’ accounts while providing assistance.
         B. From the statistical sample, determined whether employees asked the required probes
            to authenticate the caller.
IV.      Contacted Federal and State Government agencies to identify toll-free authentication
         controls and best practices.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: the IRS’ policies, procedures, and
practices over the authentication of taxpayers who call toll-free telephone numbers. We
evaluated these controls by assessing the internal control environment, interviewing
management, and reviewing a sample of contact recordings.




2
  The toll-free telephone assistance lines are subdivided into categories called “applications,” each of which is
staffed with a group of assistors who have received specialized training to assist taxpayers with specific tax issues.
Applications 20 and 21 are devoted to assistors answering taxpayer questions involving tax account conditions such
as refunds, balance-due billing activity, and changes to the amount of tax owed.
                                                                                                             Page 15
                   Telephone Authentication Practices Need Improvements
                         to Better Prevent Unauthorized Disclosures



                                                                             Appendix II

                 Major Contributors to This Report

Michael E. McKenney, Assistant Inspector General for Audit (Returns Processing and Account
Services)
Augusta R. Cook, Director
Frank Jones, Audit Manager
Wilma Figueroa, Acting Audit Manager
Geraldine Vaughn, Lead Auditor
Kenneth Carlson, Senior Auditor
Jerome Antoine, Auditor




                                                                                    Page 16
                  Telephone Authentication Practices Need Improvements
                        to Better Prevent Unauthorized Disclosures



                                                                           Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Chief Financial Officer OS:CFO
Deputy Commissioner, Wage and Investment Division SE:W
Director, Customer Account Services, Wage and Investment Division SE:W:CAS
Director, Strategy and Finance, Wage and Investment Division SE:W:S
Director, Accounts Management, Wage and Investment Division SE:W:CAS:AM
Director, Joint Operations Center, Wage and Investment Division SE:W:CAS:JOC
Chief, Performance Evaluation and Improvement, Wage and Investment Division
SE:W:S:PRA:PEI
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Chief, Program Evaluation and Improvement, Wage and Investment Division
SE:W:S:PRA:PEI




                                                                                   Page 17
                        Telephone Authentication Practices Need Improvements
                              to Better Prevent Unauthorized Disclosures



                                                                                                  Appendix IV

                                     Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. These benefits will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
•   Taxpayer Privacy and Security – Potential; 44,067 taxpayers with increased risk of
    unauthorized disclosures (see page 3). The outcome relates to the number of callers who
    were at risk of having Personally Identifiable Information or tax information disclosed
    without authorization during a 1-week period.

Methodology Used to Measure the Reported Benefit:
Our test results showed assistors did not properly authenticate 29 (16 percent) callers from our
statistical sample of 180 contact recordings. 1 The sampling error is ± 6 percent with a 95 percent
confidence level and a 20 percent error rate that the number of callers who were at risk of
unauthorized disclosure ranged from 28,768 to 59,366 for the week of August 14, 2009.
We computed the number of callers who were at risk of unauthorized disclosure by multiplying
the number of account contact recording segments for the week of August 14, 2009, in
applications 20 and 21 by the error rate identified from our observation of contact recordings.
The following factors were used to calculate potential savings:
•   Total volume of account contact recording segments during the week of August 14, 2009 =
    273,308.
•   The percentage of calls observed where assistors did not properly authenticate the caller
    = 16 percent.
Projected number of callers at risk of unauthorized disclosure
273,308 x 16 percent = 44,067. 2



1
  A contact recording captures the audio portion of the assistor/taxpayer interaction on the IRS’ toll-free telephone
lines and is synchronized with computer screen activity for replay and quality review. Some of the recordings also
include a video of the computer screen activity. These contact recordings were from calls received from individual
taxpayers who called the IRS’ 1-800-829-1040 line during the week ending August 14, 2009.
2
  Due to rounding, the figures may not always equal the totals presented in the report.
                                                                                                             Page 18
                        Telephone Authentication Practices Need Improvements
                              to Better Prevent Unauthorized Disclosures



Type and Value of Outcome Measure:
Inefficient Use of Resources – Potential; $30,310,560 (see page 9). The outcome includes the
projected increased productivity equal to 496 3 Full-Time Equivalents 4 for Fiscal Years 2010
through 2014 by eliminating the estimated 1 minute of time assistors spend authenticating callers
to IRS toll-free account telephone lines.

Methodology Used to Measure the Reported Benefit:
Our test results showed the IRS estimates that assistors spend approximately 1 minute per call
authenticating callers to toll-free account telephone lines. Use of an automated process would
reduce the labor required to authenticate callers. The following factors were used to calculate
potential savings:
•   Average volume of account calls received during a three Fiscal Year period, 2007 through
    2009 = 24,786,428.
•   The estimated time to authenticate callers = 1 minute.
•   The estimated percentage of calls where the caller will correctly answer the authentication
    probes and not require the assistor to complete additional authentication steps = 50 percent.
•   The estimated average salary for an assistor = $61,110.
Total estimated time assistors will save per year by authenticating callers while they wait to
speak with an assistor.
•   24,786,428 calls x 50 percent x 1 minute = 12,393,214 minutes.
•   12,393,214 / 60 minutes = 206,554 hours.
Total estimated annual savings assistors will save by authenticating callers while they wait to
speak with an assistor.
    •   206,554 / 2,088 hours per Full-Time Equivalent = 99 Full-Time Equivalents.
Projected inefficient use of resources in Full-Time Equivalents over 5 years
99 Full-Time Equivalents x 5 years = 496 Full-Time Equivalents.
Projected inefficient labor costs from Full-Time Equivalents over 5 years
496 Full-Time Equivalents x $61,110 = $30,310,560.


3
 Due to rounding, the figures may not always equal the totals presented in the report.
4
 A measure of labor hours in which 1 Full-Time Equivalent is equal to 8 hours multiplied by the number of
compensable days in a particular fiscal year. For Fiscal Year 2009, 1 Full-Time Equivalent was equal to 2,088 staff
hours.
                                                                                                          Page 19
                           Telephone Authentication Practices Need Improvements
                                 to Better Prevent Unauthorized Disclosures



                                                                                                     Appendix V

                             Authentication Requirements

The following details the authentication requirements for telephone assistors who answer calls
about individual taxpayer accounts.
1. For purposes of identification and to prevent unauthorized disclosures of tax information,
   you must know with whom you are speaking, complete name and title, and the purpose of the
   call/contact.
       CAUTION: Inadequate authentication of the identity of a caller could result in an
       “unauthorized disclosure” of return or return information. If an IRS employee makes a
       knowing or negligent unauthorized disclosure, the United States may be liable for damages in
       a civil cause of action. If an IRS employee makes a voluntary, intentional disclosure, the
       employee may be subject to criminal penalties including a fine, imprisonment, and loss of
       employment.
2. When you determine that the person with whom you are speaking is being coached with the
   answers to the disclosure probes, you must verify if the caller is the taxpayer or someone
   else. Once you have determined that the caller is not the taxpayer, you must complete the
   required disclosure probes with the taxpayer and then secure verbal consent from the
   taxpayer to discuss the matter with the third party. IRS employees are authorized to accept a
   taxpayer’s verbal consent to disclose return information to parties assisting the taxpayer in
   resolving a tax matter.
3. Required Individual Master File 1 authentication probes:
        a. Taxpayer Identification Number - If the taxpayer is inquiring about a jointly filed return,
           only one Taxpayer Identification Number is necessary, preferably the primary number.
           The secondary Taxpayer Identification Number may be required if the primary is
           unavailable or for use as an additional authentication check.
        b. Name - as it appears on the tax return (for the tax year(s) in question), including spouse’s
           name for a joint return.
           NOTE: If the caller is unable to provide “a” and “b” above, advise the caller to call
           back when he or she has re-checked the taxpayer name and Taxpayer Identification
           Number. Terminate the call.



1
    The Individual Master File is the IRS database that maintains transactions or records of individual tax accounts.
                                                                                                               Page 20
                  Telephone Authentication Practices Need Improvements
                        to Better Prevent Unauthorized Disclosures



 c. Current address - If taxpayer fails to provide the correct address of record, but correctly
    responds to all of the other items, you may request additional taxpayer authentication
    pursuant to Additional Taxpayer Authentication.
    NOTE: If you are unable to verify the address on the Integrated Data Retrieval System,
    request the address as it appears on the last tax return or as modified by IRS records.
 d. Filing status used on the return(s) in question (e.g., amended return, original return). If
    the taxpayer cannot confirm filing status or, if the taxpayer is inquiring about an account
    issue that does not need filing status confirmation, continue with paragraph (e) below.
    You must also follow the procedures outlined in Additional Taxpayer Authentication.
    CAUTION: If the caller is inquiring about multiple tax years, you must be certain that
    the individual is a party to each tax year in question and is entitled to receive information
    on each tax year.
    NOTE: When the caller is inquiring about an amended return that has not yet posted, the
    filing status on the related original return must be provided. If the amended return for
    which the individual is inquiring has posted, the caller must provide the filing status on
    the posted amended return.
 e. Date of birth of primary or secondary taxpayer - If the taxpayer fails the date of birth
    probe, but correctly responds to all other items above (name, Taxpayer Identification
    Number, address, and filing status), you may request additional taxpayer authentication
    pursuant to Additional Taxpayer Authentication.
    NOTE: If there is a discrepancy with the date of birth on IRS records but you are
    confident (taxpayer has passed authentication requirements) that you are speaking with
    the taxpayer, advise the taxpayer to contact the Social Security Administration at
    1-800-772-1213 to correct the error.
Additional Taxpayer Authentication
 1. For other conditions in which additional authentication is warranted, using the list below,
    verify two or more additional items from the taxpayer’s return or account:
     •   Spouse’s date of birth.
     •   Child’s/children’s date(s) of birth.
     •   Amount of income reported on last return or tax due on return.
     •   Employers shown on taxpayer’s Wage and Tax Statement (Form W-2).
     •   Financial institutions from taxpayer’s Information Returns [Interest Income
         (Form 1099-INT) or Dividends and Distributions (Form 1099-DIV)].


                                                                                         Page 21
             Telephone Authentication Practices Need Improvements
                   to Better Prevent Unauthorized Disclosures



•   Number of exemptions claimed on last return or on return in question.
•   Preparer, paid/unpaid, if any.
•   Expected refund amount (within $100) unless computed by the IRS.
•   Any other verifiable items from the return/account.




                                                                            Page 22
      Telephone Authentication Practices Need Improvements
            to Better Prevent Unauthorized Disclosures



                                                  Appendix VI

Management’s Response to the Draft Report




                                                        Page 23
Telephone Authentication Practices Need Improvements
      to Better Prevent Unauthorized Disclosures




                                                  Page 24
Telephone Authentication Practices Need Improvements
      to Better Prevent Unauthorized Disclosures




                                                  Page 25
Telephone Authentication Practices Need Improvements
      to Better Prevent Unauthorized Disclosures




                                                  Page 26
Telephone Authentication Practices Need Improvements
      to Better Prevent Unauthorized Disclosures




                                                  Page 27
Telephone Authentication Practices Need Improvements
      to Better Prevent Unauthorized Disclosures




                                                  Page 28
